I
    Department of Health and Human Services

               OFFICE OF
      INSPECTOR              GENEML




        HOMELESS FAMILIES AND
           ACCESS TO AFDC




                 OCI’OBER   1992
                      OFFICE OF INSPECrOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                          OFFICE OF AUDIT SERVICES

The OIGS Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE OF INVESTIGATIONS

The OIGS Office of Investigations (01) conducts criminal, civil, and administrative

investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of

unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,

administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud

control units which investigate and prosecute fraud and patient abuse in the Medicaid program.


              OFFICE OF EVALUATION AND INSPECITONS

The OIGS Office of Evaluation and Inspections (OEI) conducts short-term management and

program evaluations (calIed inspections) that focus on issues of concern to the Department,

the Congress, and the public. The findings and recommendations contained in these inspection

reports generate rapid, accurate, and up-todate information on the efficiency, vulnerability,

and effectiveness of departmental programs. This report was prepared in the Chicago regional

office under the direction of William Moran, Regional Inspector General, and Natalie Coen,

Deputy Regional Inspector General. Project staffi


REGION V                                                     HEADQUARTERS


Barbara Butz (Team Leader)                                   Susan Hardwick

Jean Dufresne

JoLynn Antonik



For an additional copy of this report, please call the OEI Chicago Regional Office at (312)

353-4124.

I                                                            I


    Department of Health and Human Services

                   OFFICE OF
      INSPECTOR                                     GENEML




        HOMELESS FAMILIES AND
           ACCESS TO AFDC




                            &
                                  #    SE RVICl~
                                                   L.*
                       *+                            v

                   #
                   $
                   s
                   %
                       ‘+$         $
                             4
                                 +daa
                                  >

            _BER                1992        0E14M-914)(Mj1
                         TABLE                     OF CONTENTS

                                                                                                                     PAGE

EXKUIWE            SUMMARY               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...1


FINDINGS         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...3


    Most Homeless Families Are Already On AFDc . . . . . . . . . . . . . . . . . . . . . . . ..3


    Few Are First Time Applicants to AFDC                       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


    Few Have Problems with the Application Processing Time                                . . . . . . . . . . . . . . . . . 5


APPENDIXES


k    Contacts . . .
 .   . . . . . . . . . . . . . . . ...*.    . . . ..O. . . . . . . . . . . . . . . . . . . . . .     A-1

B: Bibliography . . . . . . . . . . . . . . . . . . . . . ,....O.             . . . . . . . . . . . . . . . . . . . . . B-1
                 EXECUTIVE                         SUMMARY


PURPOSE

To examine homeless families’ accessl%ility to Aid to Families with Dependent
Children (AFDC) benefits.

BACKGROUND

At the request of the Assistant Secretary for Planning and Evaluation, we began to
examine the issue of homeless families and access to AFDC. The assumption was that
many homeless families were not accessing APE,       and that the application process in
particular caused significant problems for homeless families.

We interviewed    directors and caseworkers from 24 emergency family shelters in 8
cities of varying size and in varying locations. We conducted an extensive review of
literature and spoke with over 50 people from Federal, State, and local governments,
academia and professional organizations, non-profit advocacy groups, and providers.

FINDINGS



Sixty-nine percent of all homeless families interviewed in a related OIG study were
receiving AFDC benefits at the time of the interview. Recent literature is consistent
with this finding. For the 31 percent who were not receiving AFDC, there were
legitimate reasons, such as employment of a parent or receipt of other income. A few
had applied for AFDC but had not yet received benefits.



Fifteen of 24 shelter respondents    report 10 percent or less (including none) of their
total population as first time applicants to the AFDC program.        Even for those
shelters reporting a more than 10 percent proportion, that proportion often translated
into one, or less than one, family a month as first time applicants to the AFDC
program.

Mastsheks mpdents    saidfht        time appiicm    do not have probhnr   waithg for their
~tMWchkhmtitiWcmofWb&m&.

Overall, 14 of 24 shelters report that the processing time does not pose a problem for
first time AFDC applicants because their shelter takes care of the residents’ basic
needs. Shelter staff often act as advocates on behalf of homeless families for a variety
of benefits and services. They also said that AFDC caseworkers respond better to
clients who have such an advocate.


                                             i
                         INTRODUCTION


PURPOSE

To examine homeless families’ accessibility to Aid to Families with Dependent
Children (AFDC) benefits.

BACKGROUND

At a request from the Assistant Secretary for Planning and Evaluation, we began to
examine the issue of homeless families and how well they access Federal mainstream
programs such as AFDC. The assumption for this study was that many homeless
families were not accessing AFIX, and that the application processing time was a
hindrance to AFDC access. Furthermore, several past Office of Inspector General
(OIG) studies had revealed that many barriers hindered substantial numbers of
homeless individuals from accessing the Federal mainstream programs of Medicaid,
Supplemental Security Income, and the Alcohol, Drug Abuse, and Mental Health
Services block grant. (See “Supplemental Security Income for Homeless Individuals,”
0EI-05-91-OO060, “Alcohol, Drug, and Mental Health Services for Homeless
Individuals,” OEI-05-91-00064 and “Medicaid and Homeless Individuals” OEI-05-91-
OOO63.)

Homeless families constitute a significant proportion of the homeless population.
Estimates vaxy, but average about 30 percent. In general, the homeless family is
composed of a single woman in her twenties or thirties, with two or more children. To
a much lesser extent, single fathers, two parent families, and childless couples, make
up the homeless family population.

The AFDC program was created by the Social Security Act of 1935 to provide cash
welfare payments for needy children who have been deprived of parental support or
care because their father or mother is absent from home continuously, is deceased,
incapacitated, or unemployed. It is an open ended entitlement program jointly funded
by the Federal Government and the States. At the Federal level, the AFDC program
is administered by the Administration for Children and Families, and the Federal
Government pays half of States’ administrative costs, and from 50 to 83 percent of
benefits (averaging 54 percent). This is based on the Federal Medicaid matching rate
which is inversely related to State per capita incomes. States set benefit levels based
on the “need standard,” which is the income States decide is essential for basic
consumption items.

Federal regulations require that States take no more than 45 days to process an
application. Seventeen States allow themselves 30 days or less to process applications.

Caseloads in the AFDC program reached record levels across the country at the end
of 1991. As of November 1991, there were 4.6 million families receiving AFDC, with


                                           1

over 900,000 new families -turning to the program since July 1989. An average of
nearly 2,000 children every day had been added to the program during that time
period.

From July 1989 to November 1991, every State in the country experienced growth in
the AFDC program. Forty-five States experienced growth of 10 percent or more, 20
States reported growth of 20 percent or more, 20 States had 30 percent or more
growth, and 10 States experienced growth over 40 percent in their AFDC        caseloads.
For the entire country, this averages at 24.1 percent growth.

METI-IODOI.DGY

During pre-inspection we conducted an extensive review of available literature. We
also spoke with over 50 people from Federal, State and local governments, academia
and professional organizations, non-profit advocacy groups, and providers.

We examined data from an OIG study on the quality of emergency shelters for
homeless families. This consisted of information from 24 emergency family shelters in
8 cities in 8 States. Two of the cities are large metropolitan areas, four are large
cities, and two are small to medium size cities. The OIG staff visited all 24 shelters,
and interviewed shelter directors, staff, and up to 10 different residents in each shelter.
(See “Emergency Shelters for Homeless Families,” 0EI-07-91-O0400.)

By telephone, we re-contacted directors and caseworkers at the 24 shelters and
gathered information more specific to the issue of AFDC and difficulties associated
with the application process.

See Appendixes A and B for a list of contacts, list of cities, and a bibliography.

SCOPE

In general, we examined the issue of homeless families accessing AFDC. Specifically
we examined the issue of timeliness -- whether the amount of time that it takes to
process an AFDC application creates significant problems for homeless families trying
to access AFDC.

Although we did not set out to examine the capacity of the AFDC program to prevent
family hopelessness, this issue arose repeatedly during intemiews with respondents
from the shelters, the government, professional organizations, and academia. We also
discovered that this issue is well documented in the literature on homeless families.

This review was conducted in accordance with the Interim Standards for Inspections
issued by the President’s Council on Integrity and Efilciency.




                                             2

                                FINDINGS


MOST HOMELESS        FAMILIES IN SHELTERS ARE ALREADY ON AFDC.

Sixty-nine percent of all families interviewed in the ongoing OIG study on homeless
family shelters were receiving AFDC benefits at the time of the interview. For the 31
percent who were not currently receiving AFDC, there were a number of legitimate
reasons. These included: employment of the single mother, employment by the
husband, the mother or father received Supplemental Security Income or Social
Security Administration benefits, they had applied and were waiting for benefits, and
one shelter did not allow families to receive benefits.

Recent literature and our interviews with local government and service providers
support these findings. Our research indicates that most homeless families are already
receiving AFDC benefits at the time they become homeless, or have received AFDC
sometime in the past, but have lost their benefits due to sanctions, changes in
eligibility, or other administrative reasons.

  �
         Eighty-two percent of families in a Los Angeles (LA) shelter listed AI?DC as
         a source of income at the time they became homeless (Forbes, 1991).

  �	
         Seventy-three percent of homeless families in LA were on AFDC at the time
         of shelter intake (Wood 1989).

  �	
         &xty-four percent of homeless women in Chicago shelters were receiving
         welfare benefits and another 19 percent had received public aid in the past,
         (MCCOUII,  1989).

  �	
         Ninety-five percent of families are receiving AFDC benefits at the time of
         shelter intake, according to the New York City Human Resources
         Administration (HRA).

  �	
         In New York State, the Westchester County Rehabilitation Center processes
         all homeless families in the county prior to placement in a shelter or other
         housing situation. They reported a 95 percent AFDC caseload.

  �	
         Respondents in rural Wisconsin and Illinois reported that most homeless
         families are already on AFDC when they enter the shelter system.




                                          3

vERYFEw Residents                   IN THE24sHELm                   ARE FIRsTTIME
APPLICANTS m AFDc

Directors and caseworkers from the 24 shelters we contacted told us that very few of
their shelter population are first time applicants to the AFDC program. The graph
below illustrates their responses.


                           FirstTime A                licantsto AFDC
                         141
                                               f Otaishelter’POpulation
                                asapro portionv?




                                 04       1% -’10%   ll%:m%      ovor’20%    dOnY”knw
                                           ~dw~
           source   OIG   interviewswith directorsand caseworkersat 24 shelters.

As shown, 15 of the 24 shelter respondents report 10 percent or less (including none)
of their total population as first time applicants to the AFDC program. Even for
those shelters reporting a more than 10 percent proportion, that proportion often
translated into one, or less than one, family a month as first time applicants to the
AFDC program.

Shelter respondents reporting a higher proportion of their residents as first time
applicants to the AFDC program do not report any more problems with the
application process than shelters reporting a smaller proportion.

Most of the shelter respondents say that eligible first time applicants wait 30 days or
less to receive their first check.

       “ 1 shelter:       60 days,

       �   3 shelters:     45 days,

       “ 10 shelters:          30 days,

       �   5 shelters:     21 days, and




                                                       4�
      �   5 shelter respondents   did not know how long.

In only one case (60 days) was the reported processing time longer than the Federal
and State specified 45-day application processing time limit. At 11 shelters the
directors and caseworkers reported processing times less than the State-allowed
processing time. Seven of the shelters reported processing times equal to the State-
allowed processing time.

Shelters in States with longer processing times do not report more problems caused by
waiting than the shelters in States with shorter processing times. For example, in the
five States with a 45-day processing time, three-quarters of the sample shelters (11 out
of 15) said their residents do not have problems because of the processing time. In
contrast, in the three States with a 30-day processing time, only one-quarter of the
shelters (2 out of 7) said residents have no problems with the processing time.

MOST SHELTER SI’AFF SAID FIRST TIME APPLICANTS TO AFDC DO NOT
HAVE PROBLEMS WITH WAITING F71R THEIR FIRST CHECK BECAUSE
THE SHEL.XER TAKES CARE OF THEIR BASIC NEEDS.

Overall, 14 shelters (60 percent) report that the processing time does not pose a
problem for first time AFDC applicants. Eleven of these 14 shelters said this is
because their shelter takes care of the residents’ basic needs. The other three shelters
say that residents can access emergency assistance money which takes care of
immediate cash needs. Two respondents did say, however, that homeless families in
other shelters, or on their own, might encounter difficulties with a waiting period.

Shelter staff often act as advocates on behalf of homeless families for a variety of
benefits and setices.    Respondents also said that AFDC caseworkers respond better
to clients who have such an advocate. Some of the shelters require that families save
their MIX checks until they have enough money to pay for a deposit and first
month’s rent for housing. Food stamps are also “banked” so the family will have more
resources from which to get started. Respondents mentioned also that it is in the
shelters’ best interests to ensure that homeless families are receiving the total amount
of aid for which they are eligible.

Of the nine shelter respondents who said residents have problems with waiting for
their first AFDC check three said it was because their shelter could not provide for
residents’ basic needs until the check arrives, and another three said it was because
the maximum length of stay at their shelter was too short to apply and receive
benefits.

At the three shelters where the shelter did not   have the resources to provide
completely for the family, personal items (such   as toiletries and diapers),
transportation money, and medical needs were      most frequently listed as the things
they could not provide. Also mentioned were       “catch-22” situations in which the



                                            5

shelter could not provide the money a family needed to obtain the necessary
documentation (such as birth-certificates) for AFDC applications.

Three of the shelters said there were problems because the maximum stay in their
shelter was too short. Generally, housing does not become available in the short time
period these families stay in these shelters. However, if housing is available, there is
little a family can do but move to another shelter, without money for a security deposit
and first month’s rent.

Also, factors in addition to the processing time might contribute to problems while
waiting for an AFDC check. For example, in one city, the average length of stay in
emergency shelters ranged from 14 days to 30 days. Furthermore, the city’s housing
authority will not allow anyone to apply for public housing unless they are actually
receiving their welfare checks. A family could be approved by AFDC, but if they have
not actually received a check they cannot apply for housing. Therefore, although the
State has an expedited process, and shelters are reporting 21 to 30-day waits for a
check, all of the shelters from that city are reporting problems with that wait.

The remaining three respondents, as well as a few who mentioned shelter resources
and length of stay, brought up various problems such as the “exhausting” nature of the
application process, the “unfriendly” attitude of some AFDC caseworkers, complicated
application forms, and the inability of AFDC to prevent family hopelessness.

Although we did not ask respondents about the capacity of AFDC to prevent family
hopelessness, many respondents (including those who say their residents have no
problems while waiting for an AFDC check) pointed out that due to such issues as low
benefit levels, and sanctioning measures, receipt of AFDC benefits does not, in many
cases, prevent family hopelessness. These problems are also documented in the
literature about homeless families.




                                            6

                          -APPENDIX                   A


                                        contacts

California

     California Dept. of Social Services

     Western Center on Law and Poverty, Los Angeles


Illinois

     Illinois Department of Public Aid, Chicago

     Illinois Department of Public Aid, Springfield

     City of Chicago Department of Human Semites, Homeless Services and Programs

     Chicago Coalition Against Hopelessness, Chicago

     Chicago Institute on Urban Poverty, Chicago

     Public Welfare Coalition, Chicago

     Cornerstone Shelter, Chicago

     Pacific Garden Mission, Chicago

     St. Martin de Porres Shelter, Chicago

     Salvation Army Lodge, Chicago

     Traveler’s and Immigrant Aid, Project
 Linkage, Chicago

     Traveler’s and Immigrant Aid, Health
 Care for the Homeless, Chicago

     Circle Family Care, Homeless Project,
 Chicago

     Volunteer Sexvices, Marion

     BCMW Community Action Agency, Centralia

Missouri

     OEI Regional Office, Kansas City

New York

     Human Resources Administration, New York City
     Westchester County Rehabilitation Services

Texas

     Coalition for the Homeless of Houston/Harris   County

Washington, D.C.

     U.S. Dept. of Health and Human Services, Administration for Children and

     Families

     Debra Rog, Vanderbilt U./ Robert Wood Johnson Foundation



                                          A-1
   Martha Bur$ Urban Institute        .

   Mark Greenburg, Center-for Law and Social Policy

   Julie Strawn, Center on Budget and Policy


Wisconsin

   Dane County Department of Social Services, Madison

   Family Crisis Shelter, Milwaukee

   Family Crisis Shelter, Stevens Point

   West Central Wisconsin Community Action Agency

   Wisconsin Department of Health and Social Sew-ices



3 Shelters from Each Citw

Atlanta, GA
Boston, MA
Chicago, IL
Cleveland, OH
Little Rock AK
Louisville, KY
Los Angeles, CA
Minneapolis, MN




                                     A-2
                            APPENDIX                   B


                                      Bibliography


“Aid to Families with Dependent    Children.” Congressional Digest. Washington, D. C.:
    Februag 1988

Burt, Martha. Over the Edge: Z%eGrowth of Homeikxsness in the 1980’s. Russell Sage
    Foundation.   New York: 1992

Bassuk, Ellen L. “Homeless Families.” Scientific American. December     1991

Benenson, Robert. “Social Welfare Under Reagan.” America’s Needy: Care and
    Cutbacks. Editorial Research Reports. Congressional Quarterly Inc. Washington,
    D.C.: 1984

California Health and Welfare Agency, Dept. of Social Services, Statistical Sexvices
     Bureau. “Aid to Families with Dependent Children: Survey of Homeless         –
     Assistance Applications Approved in California during May 1989.”
     December 1990.

Carlile, Patricia. Statement Before the Senate Committee on Governmental Affain.
     Interagency Council on the Homeless. Washington, D.C.: May 14, 1992

Coalition for the Homeless of Houston/Harris County. “Addressing the Problem of
    Hopelessness in Houston and Harris County.” December 8, 1989.

Center on Budget and Policy Priorities and Center for the Study of the States. Z?ze
    States and the Poor: How Budget Decirions in 1991 Affected Low Income People.
    Washington, D.C.: December 1991

Congresswnal QuurterZyAlmanac Volume XLVI. Congressional Quarterly Inc.
   Washington, D.C.: 1990

DeParle, Jason. “California Plan to Cut Welfare May Prompt Others to Follow.” New
   York l%nes. December 18, 1991

Dugger, Celia W. “Panel on Homeless Finds Widespread Drug Abuse in New York’s
   Shelters.” New York llmes. February 16, 1992

Ferriera, Rick. “AFDC and Food Stamp Caseload Growth.” American Public We~are
    Association Memo




                                          B-1

Flynn, Jack and Robert Nipp. HUD Initiatives Show Gains for Homeless Families,
    MentaUy IV. October 31, 1990

“Food Stamp Program.” Congressional Digest. Washington, D.C.: February 1988.

Forbes, Stephanie R. and Jacqueline Leavitt, Ph.D. “New Solutions to Hopelessness:
    The Effectiveness of California’s Homeless Assistance Program.” Dept. of Urban
    and Regional Planning, University of California, Los Angeles. March 1991

Fraser, Don. “Why Cities Need to Push for Revision of Federal Welfare Laws!”
    Nation’s Cities Weekly. October 21, 1991

Hancock, Anna. “Aid to Families with Dependent Children Program in Colorado: 45-
    Day Processing Time and Its Effect on Homelessness.” Colorado Coalition for the
    Homeless. July, 1990

Home Base/Regional Support Center for Hopelessness Policy and Programs.
   I?eventing Hopelessness: Bay Area Programs and JWzat l?zey Do. November 1991

Jensen, Catherine Tim. “Food Stamp Changes Help the Rural Poor.” Food and
    Nutrition. February 1990

Joe, Tom and Cheryl Rogers. By the Few for the Few: the Reagan WeZfareLegacy. D.C.
     Heath and Company. Lexington, Massachusetts.: 1985

Koranda, Ann. Violence as a Frectusor to Mental Illness and Hopelessness. Chicago, IL:
    September 5, 1991

Matsumoto, Masao. “Domestic Food Assistance Programs.” Food and Nutrition. USDA
    Economic Research Service. July-September 1991

Mattem, Jane. “Assistant Secretary Mary Jarratt Talks About the Food Programs.”
    Food and Nutn”tion. July 1984

McCourt, Kathleen and Gwendolyn Nyden. “Promises Made, Promises Broken...The
   Crisis and Challenge: Homeless Families in Chicago.” Loyola University. The
   Chicago Institute on Urban Poverty. Travelers and Immigrants Aid. Chicago,
   Illinois, October 1990

Miller, Dorothy. Women and Social WeZjare.Praeger. New York: 1990

National Alliance to End Homelessness. Checklist for Success: Programs to Help the
    Hungy and Homeless. Spring 1990




                                        B-2

National commission on Children. Beyond Rhetotic: A New American Agenda for
    Chikiren. Washington, D.C.: 1991

National Housing Institute and American Affordable Housing Institute. Preventing
    Hornelessness: A Study of State and Local Hopelessness Prevention Programs.
    October 1991

Newman, Sandra J. and Ann B. Schnare. Subsidizing Shelter: The Relationship Between
   WeZfareand Housing Assktance. Urban Institute. Washington, D. C.: 1988

New York State Department of Social Services. BeVenting Returns to Hopelessness:
   Interventions and Outcomes of the Homeless Rehousing Assktance Program. 1990

The Ohio State University College of Social Work. Preliminary Findings on Rural
   Home/essness in Ohio. Columbus, OH: November 1990

Parish, Ramona. “Messages from a Welfare Mom.” Newsweek. May 23, 1988

Porter, Louis II. “249 Kids Homeless on a Typical Night.” Saint Paul Pioneer Press.
     February 25, 1992

“Record 25 Million People on Food Stamp Rolls.” New York ZImes. March 29, 1992

Rog, Debra J. ‘The Evaluation of the Homeless Families Program: Challenges in
    Implementing a Nine-City Evaluation.” Evaluating Programs for the Homeless.
    Josses-Bass Publishers. San Francisco: Winter 1991

Romero, Peter. “Food Stamp Plan May Help the Homeless.” Nation’s Restaurant News.
   July 23, 1990

Rovner, Julie. “New Cries for Welfare Reform Target Able-Bodied Poor.”
   Congressional Quurterly Wee@ Reprt. Washington, D.C.: March 28, 1992

The Stanford Center for the Study of Families, Children and Youth. The Stanford
    Studies of Homeiess Families, Children and Youth. November 18, 1991

“Social Security Programs in the United States.” Social Security Bulletin. Washington,
    D.C.: September 1991

Steinberg, Jacques. “Bush Budget: Officials See Local Damage.” New York Times.
     February 10, 1992

Sullivan, Louis, W. Remarkr at the R~”on I Interagency Council on the Homeless
     Workshop. Boston, MA July 11, 1991




                                          B-3

Taylor, Paul. %umey Finds Many State Cuts Aimed at Poorest of Poor.” Wahington
    Post. December 19, 1991”

Terranova, Rosemary C. Displacement/Relocation. Catholic Charities Housing
    Resource Center. St. Louis, MO

United States Department of Health and Human Services. The Fkcal Year 1993
    Budget. Washington, D.C.: January 1992

United States Department of Health and Human Sem-ices. HHS Mainstream Programs
    That Benejit the Homeless. Washington, D.C.

United States Department of Health and Human Services, Administration for
    Children and-Families, Office of Family Assistance. Fiscal Year 1990 QuarterZy
    I%blic Ass&ance Statistics. Washington, D.C., 1990.

United States Department of Health and Human Services, Office of Inspector
    General. Homeless l%wention programs. Washington, D.C.: Februa~ 1991

United States Department of Health and Human Services, Office of Inspector
    General. State programs to hovide Shelter and Temporary Housing for Families.
    Washington, D.C.: June 1989

United States Department of Health and Human Services, Social Security
    Administration. Social Security Bulletin: Annual Statistical Supplement. U.S.
    Government Printing Office, Washington, D.C.: 1988

United States General Accounting Office. Hopelessness: Too Early to Tell W4at Kim&
    of %wention Assistance Work Best. Washington, D. C.: April 1990

United States House of Representatives Committee on Ways and Means. 1991 Green
    Book Overview of Entitlement Rograrns. U.S. Government Printing Office.
    Washington, D.C.: 1991

United States Interagency Council on the Homeless. Federal Programs To HeZp
    Homeless People. October 1991

United States Interagency Council. “Federal Progress Toward Ending Hopelessness:
    The 1991/1992 Annual Report.” July 20, 1992

United States Interagency Council on the Homeless. “Fact Sheet: What are the
    characteristics of the Homeless Population?” The 1989 Annual Repott of the
    Interagency Council on the Homeless. 1989




                                          B-4

W@      DaviG R. Burciago Valde~ Toshi Hayashi, and Steven Schlossman. Calfomia
     Ch-      California Families. Over the Brink Homeless Families in Los Angeles.
     Assembly Office of Research. August 1989




                                        B-5

